No.

IN THE
SUPREME COURT OF THE UNITED STATES

DENNIS SENA,
Petitioner,
-v.STEVEN KENNEWA Y,
SUPERINTENDENT,
Respondent.
CERTIFICATE OF SERVICE
I hereby certify that I served the Petition for Writ of Certiorari, Motion to Proceed in
Forma Pauperis, Affidavit of Timely Filing by Mail, and this Certificate on all parties to be
served.
In accordance with Rule 29.3 of the Supreme Court Rules, said service has been made by
sending one copy by first class mail, postage pre-paid to:
Gabriel Thomas Thornton, AAG
Massachusetts Attorney General's Office
One Ashburton Place, 18 th Floor
Boston, MA 02108

Brian H. Fletcher
Acting Solicitor General
Office of the Solicitor General
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001

Elizabeth L. Prevett
Research and Writing Attorney
Federal Public Defender Office
P.O. Box 51268
Boston, MA 02205
(617) 223-8061 Telephone
DATED: October 8, 2021

